Sa
l

C@OCKLE

3 E-Mail Address:
Leg al Briefs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214
Est. 1923

1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-220

VBS DISTRIBUTION, INC., a California corporation,
also known as VBS HOME SHOPPING, and
VBS TELEVISION, INC., a California corporation,
Petitioners,

v.

NUTRIVITA LABORATORIES, INC.,

a California corporation, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the MOTION FOR LEAVE TO
FILE AND BRIEF OF AMICUS CURIAE BY THE LAW OFFICE OF J. EDWARD NIEHAUS
AND BRIEF OF AMICUS CURIAE IN SUPPORT OF PETITIONERS in the above entitled case
complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New
Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains
5529 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 23rd day of September, 2020.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

A GENERAL NOTARY-State of Nebraska
RENEE J. GOSS Kenee Q. Heo’ Qudraw- A. Chk,
Notary Public

My Comm. Exp. September 5, 2023
Affiant

 

40169
